HHS/OIG, Audit - "Review of Improper Temporary Assistance for Needy
Families Basic Assistance Payments in Pennsylvania for July 1 Through December
31, 2005," (A-03-06-00566)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Improper Temporary Assistance for Needy Families Basic Assistance Payments in
Pennsylvania for July 1 Through December 31, 2005," (A-03-06-00566)
December 6, 2007
Complete
Text of Report is available in PDF format (1.56 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
From July 1 through December 31, 2005, the State agency
made some Temporary Assistance for Needy Families (TANF) basic assistance
payments that did not meet Federal and State requirements and did not adequately
document all eligibility and payment determinations.  Based on the sample
results, we estimated that the overall TANF improper payment rate was 11.5
percent of the Federal dollars expended and 16 percent of the number of payments
made for basic assistance during the 6-month audit period.
We recommended that the State agency (1) use the results of this review to help
ensure compliance with Federal and State TANF requirements, (2) determine the
current eligibility of all recipients identified in this review as improperly
enrolled in the TANF program and ensure that further assistance is denied for
those who remain ineligible, and (3) recalculate assistance budgets for all
recipients identified in this review as having received improperly calculated
payments.  The State agency concurred with all of the recommendations.